No.

17-/Z3fn tfje

Supreme Court of tfje ®ntteb H>tate£
Paul V. Cannon,
Petitioner,
v.

Bank of America, National Association;
Mortgage Electronic Registration Systems, Inc.;
Bank Of New York Mellon, as Trustee for
CWABS Asset-Backed Certificates Trust 2007-9;
Specialized Loan Servicing, LLC,
Respondents.

\

PROOF OF SERVICE

I, Paul Vf Cannon, declare under penalty of perjury under the laws of the
ited
States of America that on the 12th day of July, 2019, I served the Petition for!Writ
of Certiorari upon the Respondents in the above-captioned case by mailing three
copies to each of the attorneys listed below, postage paid, via the United States
Mail.
Attn: JOHN H. McCANN, III
Shechtman Halperin Savage, LLP
1080 Main Street
Pawtucket, RI 02860
Attorneys for Bank of America, N.A.,
and Mortgage Electronic Registration
Systems, Inc.

Attn: CHRISTINE KINGSTON
Nelson Mullins Riley & Scarborough, LLP
One Post Office Square, 30th Floor
Boston, MA 02109
Attorneys for Bank of New York Mellon and
Specialized Loan Servicing, LLC

PaSfv. Cannon

RECEIVED
JUL 1 6 2019
OFFICE OF THE CLERK
SUFWEME COURT. U.S.

